No.

IN THE
SUPREME COURT OF THE UNITED STATES

ANTHONY ROGELIO GRIEGO - PETITIONER
VS.
MARK S. INCH, SECRETARY,
FLORIDA DEPARTMENT OF CORRECTIONS - RESPONDENT(S)

PROOF OF SERVICE
I, Anthony R. Griego, do certify or declare this on this 3rd day of SEPTEMBER 2020, as
required by Supreme Court Rule 29 I have served the enclosed MOTION FOR LEAVE TO
PROCEED IN FORMA PAUPERIS and PETITION FOR WRIT of CERTIORARI on each party
to the above proceeding or that party’s counsel, and on every other person required to be served,
by placing an envelope containing the above documents within the hands of prison officials for
mailing via United States mail priority. The names and addresses of those served are as follows:
Office of Attorney General, Ashley Moody, PL-01 The Capitol, Tallahassee, Florida 32399
I declare under penalty of perjury that the foregoing is true and correct.28 U.S.C. 1746
Executed on this 3^ day of SEPTEMBER 2020.
/s/

41

X7

Anthony ^Griego, pro-se
Quincy Annex,
2225 Pat Thomas Pkwy.
Quincy, Florida 32351

